Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   CMS’S PROCESS FOR SHARING
     INFORMATION ABOUT
    TERMINATED PROVIDERS
     NEEDS IMPROVEMENT




                    Daniel R. Levinson
                     Inspector General

                      March 2014
                     OEI-06-12-00031
EXECUTIVE SUMMARY:
CMS’s Process for Sharing Information About Terminated Providers Needs
Improvement
OEI-06-12-00031

WHY WE DID THIS STUDY
The Patient Protection and Affordable Care Act (ACA) requires the Centers for Medicare
& Medicaid Services (CMS) to establish a process for sharing information about terminated
providers. To meet this requirement, CMS established a Web-based portal, the Medicaid
and Children’s Health Insurance Program State Information Sharing System (MCSIS).
Sharing terminated provider data among States prevents terminated providers in one State
from enrolling in another State. CMS and State agencies can submit information about
providers that meet CMS’s criteria for having been terminated “for cause” from Medicare,
Medicaid, or the Children’s Health Insurance Program (CHIP). State Medicaid agencies can
use these data to identify these providers and subsequently terminate them from their
Medicaid programs as required under another section of the ACA. In November 2013,
subsequent to the timeframe we examined for this study, CMS revised its process for sharing
information about terminated providers. The findings and recommendations in this report
remain relevant to the new process.

HOW WE DID THIS STUDY
We examined all provider records contained in MCSIS as of June 1, 2013. We
(1) determined the extent to which CMS and State Medicaid agencies submitted records to
MCSIS; (2) identified records that did not meet CMS criteria for reporting providers
terminated “for cause” from Medicare, Medicaid, or CHIP; and (3) assessed whether records
had complete identifying information about providers, including National Provider
Identifiers (NPIs), provider types, and provider addresses.

WHAT WE FOUND
As of June 1, 2013, MCSIS contained records on terminated providers submitted by CMS
and 33 State Medicaid agencies and did not contain records from the remaining State
Medicaid agencies. Contrary to CMS guidance, about one-third of the 6,439 records in
MCSIS did not relate to providers terminated “for cause.” Over half of MCSIS records did
not contain NPIs, a critical data element for accurately identifying providers. Additionally,
one-third of MCSIS records did not identify the provider types and one quarter had no
provider addresses.

WHAT WE RECOMMEND
Our findings suggest that CMS’s process for sharing information on terminated providers
needs improvement to make it more useful to State Medicaid agencies in identifying
providers that must be terminated pursuant to Federal law because they were terminated “for
cause” by Medicare, Medicaid, or CHIP. Therefore, we recommend that CMS (1) require
each State Medicaid agency to report all terminated providers, (2) ensure that the shared
information contains only records that meet CMS’s criteria for inclusion, and
(3) take action to improve the completeness of records shared through the process. CMS
concurred with all recommendations.
TABLE OF CONTENTS

Objectives.................................................................................................... 1 

Background ................................................................................................. 1 

Methodology ............................................................................................... 5 

Findings....................................................................................................... 7 

           CMS and 33 State Medicaid agencies submitted records on 

           terminated providers to MCSIS; the remaining State agencies 

           did not submit such records.............................................................. 7 

           Almost one-third of records contained in MCSIS did not relate                            

           to providers terminated “for cause” ................................................ 7 

           Over half of MCSIS records did not contain NPIs or other 

           identifying information ................................................................... 9 

Conclusion and Recommendations ........................................................... 13 

Agency Comments and Office of Inspector General Response ................ 15 

Appendix ................................................................................................... 16 

           A: MCSIS Records, as of June 1, 2013........................................ 16 

           B: Agency Comments................................................................... 21 

Acknowledgments ..................................................................................... 24 

                  OBJECTIVES
                  1.	 To determine the extent to which the Centers for Medicare
                      & Medicaid Services (CMS) and State Medicaid agencies
                      (State agencies) reported provider information to the Medicaid and
                      Children’s Health Insurance Program State Information Sharing
                      System (MCSIS).
                  2.	 To identify MCSIS records not related to providers terminated “for
                      cause” from Medicare, Medicaid, or the Children’s Health Insurance
                      Program (CHIP).
                  3.	 To assess the completeness of provider identifying information in
                      MCSIS records, including National Provider Identifier (NPI), provider
                      type, and provider address.

                  BACKGROUND
                  Section 6401(b)(2) of the Patient Protection and Affordable Care Act
                  (ACA) requires CMS to establish a process to make available to State
                  agencies information about individuals and entities1 terminated from
                  participating in the Medicare, Medicaid, or CHIP programs.2 To meet this
                  requirement, CMS established MCSIS, a secure Web-based portal, used
                  for the specific purposes of storing information about terminated providers
                  and making that information available to State Medicaid agencies.3
                  During interviews, CMS officials indicated that they expected MCSIS to
                  be a temporary database for use while CMS developed a more permanent
                  process for sharing data on terminated providers. In November 2013,
                  subsequent to our data collection and analysis for this report, CMS revised
                  the process and moved the function of sharing information about
                  terminated providers from MCSIS to another automated system. Although
                  this report focuses on MCSIS, its findings and recommendations are
                  applicable to the revised process.
                  Section 6401(b)(2) of the ACA specifies that the process for sharing
                  information on terminated providers must include the name of the


                  1
                    76 Fed. Reg. 5862, 5943 (Feb. 2, 2011). CMS interpreted the term “individuals and
                  entities” to include providers, suppliers, and eligible professionals. In this report, we use
                  the term “provider” to refer to providers, suppliers, and eligible professionals.
                  2
                    ACA, P.L. 111-148 § 6401(b)(2) (Mar. 23, 2010), as amended by the Health Care and
                  Education Reconciliation Act of 2010, P.L. 111-152 (Mar. 30, 2010). 

                  3
                    CMS, CPI-B 11-05, ACA Program Integrity Provisions—Guidance to States—

                  Section 6501—Termination of Provider Participation Under Medicaid if Terminated

                  Under Medicare or Other State Plan, May 31, 2011. 



CMS’s Process for Sharing Information About Terminated Providers Needs Improvement (OEI-06-12-00031)      1
                  terminated provider, the provider’s NPI,4 and other identifying
                  information. Access to this information can assist State agencies in
                  complying with section 6501 of the ACA, which requires State Medicaid
                  programs to terminate participation of providers if terminated under
                  Medicare, another State Medicaid program, or CHIP.5, 6
                  ACA Provider Termination Requirement
                  Section 6501 of the ACA requires that, effective January 1, 2011, each
                  State must terminate the participation of any individual or entity from the
                  State Medicaid program if that provider or entity’s participation has been
                  terminated from Medicare, another State Medicaid program, or CHIP.7
                  Terminations occur when:
                       	 Medicare, Medicaid, or CHIP programs revoke a provider’s billing
                          privileges,
                       	 the provider has exhausted all applicable appeal rights or the
                          timeline for such appeal has expired,
                       	 there is no expectation by any party that the termination is 

                          temporary, and 

                       	 the provider would be required to reenroll to have billing privileges
                          reinstated.8
                  The requirement for States to terminate applies only in cases when
                  providers, suppliers, or eligible professionals were terminated or had their
                  billing privileges revoked “for cause.” “For cause” terminations, as
                  defined by CMS in implementing regulations, means terminations or
                  revocations of billing privileges for reasons that may include, but are not
                  limited to, fraud, integrity, or quality.9 “For cause” terminations do not
                  include State program removal of inactive providers from provider
                  enrollment files or cases when providers voluntarily end their participation

                  4
                    69 Fed. Reg. 3434, 3440 (Jan. 23, 2004). The NPI is a standardized Federal unique

                  identifier for individual and organizational health care providers. Federal regulations 

                  require an NPI for transmitting health information electronically for Medicare and 

                  Medicaid services. 

                  5
                    ACA § 6501, the Social Security Act (SSA) § 1902(a)(39), 42 U.S.C. § 1396a(a)(39). 

                  6
                    76 Fed. Reg. 5862, 5943 (Feb. 2, 2011). Although section 6501 of the ACA does not 

                  specifically require terminations of CHIP providers, CMS included such terminations

                  from CHIP in Federal regulations.

                  7
                    ACA § 6501, SSA § 1902(a)(39), 42 U.S.C. § 1396a(a)(39). 

                  8
                    Ibid. 42 CFR § 455.101.

                  9
                    76 Fed. Reg. 5862, 5943 (Feb. 2, 2011). 42 CFR § 455.416(c). CMS, CPI-B 12-02, 

                  ACA Program Integrity Provisions—Guidance to States—Section 6501—Termination of

                  Provider Participation Under Medicaid if Terminated Under Medicare or Other State 

                  Plan, January 20, 2012. CMS provided examples of “for cause” terminations, some of 

                  which are fraudulent conduct, abuse of billing privileges, misuse of billing numbers, 

                  falsification of medical records, and falsification on enrollment applications. 



CMS’s Process for Sharing Information About Terminated Providers Needs Improvement (OEI-06-12-00031)   2
                  in the program, except when a provider takes this voluntary action to
                  avoid a sanction, such as revocation or termination.10
                  Submitting Records to MCSIS
                  CMS made MCSIS available to accept submissions of records in 2011.
                  CMS could submit records about providers terminated from Medicare, and
                  State agencies could submit records about providers terminated from
                  Medicaid or CHIP. CMS and State agencies could submit records by
                  uploading or manually entering records into the database, and they could
                  edit previously submitted records.11 Neither Federal law nor CMS policy
                  requires States to submit records about terminated providers to CMS.
                  However, CMS encouraged State agencies to submit such records to
                  MCSIS and thus make information about terminated providers available to
                  other State agencies to facilitate compliance with section 6501 of the
                  ACA.12 CMS clarified to State agencies that “for cause” terminations
                  shared with other States “should be limited to terminations based upon
                  fraud, integrity, or quality.”13 Although CMS did not verify the
                  information that State agencies submitted to MCSIS, it issued a User
                  Manual with instructions to State agencies for submitting records to
                  MCSIS.14
                  Using Information Contained in MCSIS
                  If State agencies submitted records to MCSIS as CMS encouraged them to
                  do, other State agencies could use the information stored in MCSIS to
                  identify providers that they must terminate from Medicaid pursuant to
                  section 6501.15 To obtain information, a State agency could either search
                  MCSIS for particular providers or export the MCSIS database to conduct
                  “matches” against the State agency’s roster of providers. These data
                  matches could identify providers by name and further verify possible
                  matches by checking the NPI or other identifying information, such as
                  provider type and address. The more data elements that matched, the

                  10
                     Ibid. 

                  11
                     CMS, CPI-B 12-02, ACA Program Integrity Provisions—Guidance to States—

                  Section 6501—Termination of Provider Participation Under Medicaid if Terminated

                  Under Medicare or Other State Plan, January 20, 2012.

                  12
                     Section 1902(a)(41) of the SSA, 42 U.S.C. § 1396a(a)(41), requires broadly that all 

                  Medicaid State plans “provide that whenever a provider of services or any other person is
                  terminated, suspended, or otherwise sanctioned or prohibited from participating under the
                  State plan, the State agency shall promptly notify the Secretary and, in the case of a
                  physician and notwithstanding paragraph (7), the State medical licensing board of such
                  action.”
                  13
                     Ibid. 

                  14
                     CMS, CMS Medicaid and Children’s Health Insurance Program (CHIP) State 

                  Information Sharing System (MCSIS) User Manual. Initial publication Version 1.0,

                  January 14, 2011; Version 2.9 published June 9, 2012.

                  15
                     76 Fed. Reg. 5862, 5943 (Feb. 2, 2011). 42 CFR § 455.416(c). 



CMS’s Process for Sharing Information About Terminated Providers Needs Improvement (OEI-06-12-00031)   3
                  greater the confidence a State agency could have that it identified the same
                  provider terminated “for cause” by Medicare or another State program.
                  MCSIS Data Fields
                  MCSIS contained multiple data fields for storing information about
                  terminated providers. These fields included the two data elements
                  specifically required by the ACA: provider name and NPI.16 The ACA
                  specifically requires CMS’s information-sharing process to include NPI,
                  which is the primary provider identifier used for submitting claims to
                  Medicare, Medicaid, and many other health care payers. However, not all
                  types of providers are required to have an NPI (e.g., home health aides),
                  meaning that an NPI may not have been available for every record
                  submitted to MCSIS.17 MCSIS contained additional fields that captured
                  other information, such as provider type, provider address, and the name
                  of the reporting State. MCSIS also included fields associated with the
                  provider’s termination, including termination date, length of termination,
                  reason for termination, and program from which the provider was
                  terminated (i.e., Medicare, Medicaid, or CHIP).18
                  Seven MCSIS data fields, shown in Table 1, were mandatory, meaning
                  that record submissions had to contain information in those fields to be
                  accepted into the database. MCSIS would reject a record submitted with
                  any mandatory fields empty.19
                  Three fields shown in Table 1 were optional; MCSIS would accept a
                  submission that did not contain information for NPI, provider type, and/or
                  State provider ID.
                  Some fields in MCSIS offered drop-down menus with a list of choices.
                  For example, MCSIS had 14 choices for the reason for a provider’s
                  termination, such as abuse of billing privileges, felony conviction, and
                  State exclusion/debarment. The field for provider type included
                  26 choices, such as Physician, Nonphysician Practitioner, and Home
                  Health Agency, as well as “Other.” Additional fields with drop-down
                  menus included the terminating program (i.e., Medicare, Medicaid, or
                  CHIP) and the code for the reporting State.

                  16
                     ACA § 6401(b)(2).

                  17
                     45 CFR § 162.103, § 162.404, § 162.410. NPIs are required only for health care

                  providers satisfying the Health Insurance Portability and Accountability Act’s (HIPAA’s) 

                  definition of covered entities, which means (1) a health plan, (2) a health care 

                  clearinghouse, or (3) a health care provider that transmits health information in electronic 

                  form in connection with a transaction covered by HIPAA. Thus, some providers are not

                  required to obtain an NPI because they do not meet this definition. 

                  18
                     MCSIS contained a few other data fields that were not relevant for purposes of this

                  report.

                  19
                     CMS, MCSIS User Manual, Version 2.9, June 9, 2012, p. 61. 



CMS’s Process for Sharing Information About Terminated Providers Needs Improvement (OEI-06-12-00031)     4
                  Table 1: Selected Data Fields Available for Records in MCSIS

                    Terminated Provider Information                           Mandatory         Optional

                    Name (Individual or Organization)                            X
                    NPI                                                                                X
                    Other Identifying Information:
                       Address (Mailing/Practice)                                X
                       Provider Type                                                                   X
                      State Code                                                 X
                       State Provider ID                                                               X
                    Termination Information:
                       Length of Termination                                     X
                       Program Type (Medicare, Medicaid, or CHIP)                X
                       Termination Date                                          X
                       Termination Reason                                        X
                  Source: CMS MCSIS User Manual, Version 2.9, June 9, 2012.



                  METHODOLOGY
                  Scope
                  For this report, we examined all records contained in MCSIS as of
                  June 1, 2013. We identified the extent to which MCSIS contained records
                  from CMS and State agencies about providers terminated “for cause” from
                  Medicare and from Medicaid. We also examined the completeness of
                  information in MCSIS data fields and attempted to verify the accuracy of
                  submitted NPIs. This report focuses on records contained in MCSIS. A
                  separate Office of Inspector General (OIG) report (forthcoming) will
                  address State agencies’ termination of providers pursuant to section
                  6501.20
                  Data Collection and Analysis
                  To examine records contained in MCSIS, we first identified the number of
                  records submitted by CMS and State agencies. We calculated the
                  percentage of records associated with Medicare and Medicaid providers.21
                  We also examined the reason for termination listed in each record to
                  identify any terminated providers not related to “for cause” terminations.
                  To assess the completeness of records contained in MCSIS, we examined
                  the contents of each data field for each record. We calculated the
                  percentages of complete fields and empty fields, across all records and by
                  the reporting entity. When records contained “N/A” in a data field, which


                  20
                     OIG, OIG Workplan, Fiscal Year 2013; OIG, State Terminations of Providers
                  Terminated by Medicare or by Other States, OEI-06-12-00030, publication expected in
                  2014.
                  21
                     At the time of our review, June 1, 2013, MCSIS did not contain any CHIP records.


CMS’s Process for Sharing Information About Terminated Providers Needs Improvement (OEI-06-12-00031)       5
                  could be an indication that the information was not available or not
                  applicable, we considered these data fields to be empty.
                  To the extent possible, we verified the accuracy of the NPIs contained in
                  MCSIS. For this analysis, we compared the NPI contained in MCSIS to
                  the NPI listed for the provider in CMS’s National Plan and Provider
                  Enumeration System (NPPES), the database that CMS uses for assigning
                  NPIs to individual providers and entities.22
                  Limitations
                  This study has two limitations. First, with the exception of the NPIs, we
                  did not verify the accuracy of the information submitted to MCSIS.
                  Second, given the temporary status of MCSIS and the voluntary
                  participation by State agencies, we did not attempt to determine the extent
                  to which MCSIS contained records for all providers terminated “for
                  cause.”
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.




                  22
                    CMS (Medicare Learning Network), The National Provider Identifier (NPI): What
                  You Need to Know. Accessed at http://www.cms.gov/Outreach-and-Education/Medicare-
                  Learning-Network-MLN/MLNProducts/downloads/NPIBooklet.pdf on April 28, 2013.
                  CMS developed the NPPES to assign unique identifiers to providers, and CMS stores this
                  information in a searchable database known as the NPI Registry. To avoid assigning the
                  same NPI to more than one provider, the NPPES tracks individual providers using unique
                  personal identifiers, such as date of birth (DOB), place of birth, Social Security number
                  (SSN), and Taxpayer Identification number (TIN).


CMS’s Process for Sharing Information About Terminated Providers Needs Improvement (OEI-06-12-00031)   6
                  FINDINGS 

                  MCSIS contained records on terminated providers
                  submitted by CMS and 33 State Medicaid agencies and
                  did not contain records from the remaining State
                  Medicaid agencies
                  As of June 1, 2013, MCSIS contained 6,439 provider records submitted by
                  CMS and 33 State agencies. CMS submitted 27 percent of MCSIS
                  records (1,726) about providers terminated from Medicare. Combined, the
                  33 State agencies submitted the remaining 73 percent (4,713) of records.
                  Four States accounted for 72 percent (3,413 of 4,713) of the Medicaid
                  records contained in MCSIS: California (2,074), New York (597),
                  Pennsylvania (442), and Illinois (300). See Appendix A, Table A-1, for
                  the number of provider records submitted by CMS and State agencies.

                  MCSIS did not contain records from the remaining State agencies as of
                  June 1, 2013. CMS policy does not require State agencies to submit data
                  on terminated providers through CMS’s information-sharing process.

                  Almost one-third of records contained in MCSIS did
                  not relate to providers terminated “for cause”
                  Of the 6,439 records contained in MCSIS, over 2,000 records did not
                  relate to providers terminated “for cause.” As mentioned above, CMS
                  provided guidance with criteria about “for cause” terminations and
                  specified that the information shared in MCSIS should be limited to
                  providers terminated “for cause.” However, many records in MCSIS
                  pertained to individuals who were not enrolled in or had not been
                  terminated from the Medicaid program in the States submitting the
                  records, and others pertained to providers whose termination from
                  Medicare did not meet CMS’s criteria for “for cause” termination.




CMS’s Process for Sharing Information About Terminated Providers Needs Improvement (OEI-06-12-00031)   7
                  California submitted records to MCSIS for providers that were
                  not enrolled in and had not been terminated from the State
                  Medicaid program
                  California submitted numerous records (2,000 or more)23 for providers that
                  were not enrolled in the Medicaid program. Therefore, these providers
                  were not terminated “for cause” and would not warrant termination by
                  another State Medicaid program pursuant to section 6501. When
                  contacted, State agency officials explained that the agency deemed these
                  individual providers and organizations ineligible for enrollment in the
                  State Medicaid program.24 Although these officials recognized that the
                  records the agency had submitted to MCSIS did not meet the criteria for
                  provider terminations, they explained that they wanted to make other State
                  agencies aware of the providers’ status as ineligible for enrollment in
                  California. 25
                  CMS submitted records to MCSIS for deceased providers that
                  were not terminated “for cause”
                  Of the Medicare provider records submitted to MCSIS, 4 percent (71 of
                  1,726) pertained to providers listed as deceased. CMS provides a
                  disclaimer in MCSIS acknowledging that deceased providers do not meet
                  the guidance it issued regarding “for cause” terminations for purposes of
                  section 6501. The disclaimer indicates that States should use the
                  information to ensure that they are not paying for services billed on behalf
                  of deceased providers.26 See Appendix A, Tables A-2 and A-3, for
                  termination reasons submitted to MCSIS by Medicare and State agencies.


                  23
                     It is not possible to determine precisely how many of the 2,074 records submitted by
                  the California Medicaid program pertained to providers that were not enrolled and had
                  not been terminated. However, State agency officials indicated that, by the definition of
                  “suspended and ineligible,” the vast majority of these providers were not participating in,
                  and had not been terminated from, Medicaid.
                  24
                     State of California Welfare and Institutions Code, §§ 14043.6 and 14123.
                  25
                     We followed up with officials in California on this issue because MCSIS contained so
                  many California records. However, we did not contact the other State agencies about this
                  issue because it was beyond the scope of the planned data collection for this report.
                  Other State agencies may also have submitted records for providers that were not
                  terminated “for cause.”
                  26
                     MCSIS contains the following disclaimer about records for deceased providers: “In
                  addition to sharing information regarding Medicare providers that have had their
                  Medicare billing privileges revoked ‘for cause,’ CMS will also be sharing information
                  about providers that have had their Medicare billing privileges deactivated because our
                  data indicates they are deceased. While the requirement of section 6501 of the
                  Affordable Care Act do not apply per se, States should use the information regarding
                  deceased providers to ensure they are not paying for any services that were billed as if
                  they were rendered by such deceased providers. Providers that have had their Medicare
                  enrollment deactivated due to death will be designated as ‘deceased provider’ under the
                  ‘reason for termination.’”


CMS’s Process for Sharing Information About Terminated Providers Needs Improvement (OEI-06-12-00031)   8
                  Over half of MCSIS records did not contain NPIs or
                  other identifying information
                  Although all MCSIS records included the name of a provider, many
                  records did not contain information that would be useful when State
                  agencies attempt to identify providers required to be terminated by
                  section 6501. Key information missing from MCSIS records included
                  NPI, provider type, and address. Overall, 59 percent (3,831 of 6,439) of
                  MCSIS records were blank (i.e., contained no information) for at least 1 of
                  these fields.

                  Over half of records in MCSIS did not contain NPIs, and some
                  NPIs appeared to be inaccurate
                  Overall, 59 percent (3,771 of 6,439) of MCSIS records did not contain
                  NPIs. Most provider types (e.g., physicians, nurse practitioners, home
                  health agencies) must have NPIs to bill Medicare and Medicaid,
                  suggesting that submitters omitted the NPIs from many of these records.27
                  For 15 State agencies, more than 50 percent of submitted records did not
                  contain NPIs.
                  The remaining 41 percent of MCSIS records contained an NPI. All
                  1,726 records submitted by CMS for Medicare providers contained NPIs,
                  as did all records submitted by 8 States. See Table 2 for the number and
                  percentage of MCSIS records without NPIs.
                  Additionally, 3 percent (93 of the 2,668) of NPIs in MCSIS records
                  appeared to be inaccurate when compared to NPI data contained in
                  NPPES, the database that CMS uses for assigning NPIs to individual
                  providers and entities. Three percent (73) of the NPIs in MCSIS were
                  listed in NPPES as belonging to different providers, and another 1 percent
                  (20) of the NPIs in MCSIS did not match any provider in NPPES. Both
                  Medicare and Medicaid provider records had NPI inaccuracies in MCSIS.




                  27
                    It was not possible to confirm whether some provider records in MCSIS legitimately
                  did not include NPIs, such as records involving types of providers that are not required to
                  obtain NPIs, because many of the records missing NPIs were also missing information on
                  the provider types.


CMS’s Process for Sharing Information About Terminated Providers Needs Improvement (OEI-06-12-00031)   9
                   Table 2: Number and Percentage of MCSIS Records Without NPIs, by
                   Program Type
                                                                                            Percentage of MCSIS
                    State Medicaid
                                           Number Without NPI               Total Records               Records
                    Program
                                                                                                     Lacking NPI
                    CA                                      2,018                   2,074                   97%
                    NY                                        399                    597                    67%
                    PA                                        333                    442                    75%
                    IL                                        300                    300                   100%
                    AL                                        167                    190                    88%
                    OH                                        128                    263                    49%
                    NJ                                        100                    159                    63%
                    AR                                          92                    93                    99%
                    MD                                          65                   122                    53%
                    NE                                          40                    43                    93%
                    MI                                          24                   146                    16%
                    IA                                          20                    21                    95%
                    AK                                          16                    16                   100%
                    ID                                          15                    22                    68%
                    VT                                          13                    14                    93%
                    MS                                          10                    32                    31%
                    FL                                           8                     9                    89%
                    GA                                           7                    20                    35%
                    MO                                           3                    18                    17%
                    VA                                           3                     6                    50%
                    ME                                           3                     4                    75%
                    AZ                                           2                    12                    17%
                    CT                                           2                     5                    40%
                    IN                                           2                     4                    50%
                    WI                                           1                    43                       2%
                    WA                                           0                    18                       0%
                    NV                                           0                    18                       0%
                    DE                                           0                    14                       0%
                    KS                                           0                     2                       0%
                    MA                                           0                     2                       0%
                    TN                                           0                     2                       0%
                    LA                                           0                     1                       0%
                    RI                                           0                     1                       0%

                    Medicaid Total                          3,771                   4,713                   80%

                    Medicare Total                               0                  1,726                      0%

                    Medicare and
                                                            3,771                   6,439                   59%
                    Medicaid Total
                   Source: OIG analysis of MCSIS data as of June 1, 2013.




CMS’s Process for Sharing Information About Terminated Providers Needs Improvement (OEI-06-12-00031)      10
                  One-third of MCSIS records did not contain provider type
                  information, and many other records listed the provider type
                  as “Other”
                  Although MCSIS offers a drop-down menu for selecting the type of
                  provider for each record, the provider type field was blank for 33 percent
                  (2,107) of MCSIS records. Fourteen State agencies submitted the records
                  with missing provider type information.28 Another 19 percent of records
                  (1,221) contained “Other” in the provider type field, potentially making
                  these records less useful for verifying database matches. (See Table 3.)
                  Programs with records listing the provider type as “Other” included both
                  Medicare (355 records) and Medicaid (866 records). The “Other” label is
                  appropriate for records that do not fit under any of the other 25 specific
                  provider type choices in the drop-down menu. However, it is possible that
                  some States overused the “Other” label. For example, Arkansas used
                  “Other” in 95 percent of its submitted records (88 of 93), and Florida did
                  so for 78 percent of its records (7 of 9). See Appendix A, Tables A-4 and
                  A-5, for listings of provider types submitted to MCSIS by Medicare and
                  State agencies.

                   Table 3: Total Number and Percentage of MCSIS Records by

                   Contents of Provider Type Field

                    Provider Type                                           Records           Percentage
                    Provider Type Was Listed (Not Listed
                                                                              3,111                    48%
                    as “Other”)
                    Blank                                                     2,107                    33%
                    Provider Type Listed As “Other”                           1,221                    19%

                    Total                                                     6,439                100%
                   Source: OIG analysis of MCSIS data as of June 1, 2013.


                  Among records that contained information on provider type, “physician”
                  was the most common provider type listed, indicated in over 30 percent of
                  the records. The only other provider types accounting for more than 1
                  percent of MCSIS records were Nonphysician Practitioners (5.8 percent),
                  Personal Care Attendants (3.8 percent), Psychologists (1.7 percent),
                  Dentists (1.6 percent), and Pharmacists (1.2 percent).




                  28
                    California records accounted for 97 percent (2,049 of 2,107) of the records missing
                  provider type information.




CMS’s Process for Sharing Information About Terminated Providers Needs Improvement (OEI-06-12-00031)         11
                  Almost one-quarter of MCSIS records did not contain
                  addresses for the providers
                  Although MCSIS includes fields for reporting an individual’s practice
                  address, a business address, or both, 22 percent of MCSIS records (1,448)
                  contained neither.29 California submissions accounted for all the records
                  without addresses and instead contained “N/A” (presumably meaning “not
                  applicable”) in address fields. 30 The remaining 78 percent of records
                  contained addresses, with street numbers or P.O. box numbers, cities,
                  States, and ZIP Codes. 31 Our review did not attempt to verify the
                  accuracy of the address information contained in MCSIS records.




                  29
                     As mentioned earlier, the address field in MCSIS was a mandatory data field.
                  However, it appeared that MCSIS accepted submissions as long as the records contained
                  any characters typed in the provider or organization address field.
                  30
                     A small number (62 of 6,439) of the records from States other than California
                  contained somewhat incomplete address information, such as containing only the name of
                  an institution or facility or missing street numbers or cities.
                  31
                     As a result of rounding, the total number of records without addresses (23 percent) and
                  total with addresses (78 percent) do not sum to 100 percent.


CMS’s Process for Sharing Information About Terminated Providers Needs Improvement (OEI-06-12-00031)   12
                  CONCLUSION AND RECOMMENDATIONS
                  As required by the ACA, CMS established a process for sharing
                  information about terminated providers by creating MCSIS, a Web-based
                  portal. Our findings suggest that CMS’s information-sharing process
                  needs improvement to make it useful to State agencies to identify
                  providers that the States must terminate from Medicaid pursuant to
                  section 6501. Although MCSIS contained over 6,400 provider records
                  submitted by CMS and 33 State agencies, it did not contain any provider
                  records from the remaining State agencies, as of June 1, 2013. Further,
                  many of the records contained in MCSIS did not relate to providers
                  terminated “for cause,” a requisite factor for State termination under
                  section 6501. Moreover, many MCSIS records had empty data fields,
                  including fields critical for identifying providers, including NPI, provider
                  type, and address.
                  Although CMS recently revised its process for sharing information about
                  terminated providers, our findings are applicable to the revised process.
                  To maximize the usefulness of its process, CMS should address the issues
                  identified in this report.
                  Therefore, we recommend that CMS:
                  Require each State Medicaid agency to report all terminated
                  providers
                  As directed by section 6402(b)(2) of the ACA, CMS established a process
                  to make available information about health care providers that State
                  Medicaid agencies must terminate under section 6501 of the
                  ACA. However, we found that many State agencies did not submit
                  information about any providers terminated from their programs during
                  the period that we reviewed; as a result, MCSIS included only a portion of
                  providers terminated “for cause.”
                  To date, CMS has encouraged, rather than required, State agencies to
                  submit terminated provider records. However, CMS has broad authority
                  under section 1902(a)(41) of the SSA to require State agency reporting of
                  information about terminated providers. CMS should use this authority to
                  ensure that the process established under section 6402(a)(2) of the ACA
                  includes all providers terminated by State and Federal programs for
                  reasons involving fraud, integrity, or quality.




CMS’s Process for Sharing Information About Terminated Providers Needs Improvement (OEI-06-12-00031)   13
                  Ensure that the shared information contains only records that
                  meet CMS criteria for inclusion
                  To date, CMS guidance has been clear that terminations shared through its
                  information-sharing process should be limited to “for cause” terminations
                  for reasons involving fraud, integrity, or quality. By definition, “for
                  cause” terminations are not final until the provider has exhausted all
                  applicable appeal rights or the timeline for such appeal has expired. To
                  ensure that its information-sharing process does not include inappropriate
                  records, such as those for individuals who were not enrolled or who had
                  not been terminated, CMS should adhere to its criteria and remove any
                  existing records that do not meet the criteria. Such actions would assure
                  State agencies that the providers listed as terminated “for cause” must be
                  terminated under section 6501. Further, because deceased providers do
                  not meet the criteria for “for cause” termination, CMS should remove the
                  Medicare records for deceased providers from its information-sharing
                  process. We do not recommend a change in criteria for submissions. Still,
                  if CMS chooses to include records for deceased providers or to otherwise
                  expand its information-sharing process beyond “for cause” terminations, it
                  should issue new regulations or guidance and implement a mechanism to
                  clearly identify those providers that a State must terminate under section
                  6501.
                  Take action to improve the completeness of records shared
                  through the process, especially in data fields critical to
                  identifying terminated providers
                  Incomplete records—especially those missing NPIs, provider types, and
                  addresses—make CMS’s information-sharing process far less useful to
                  States attempting to identify providers that warrant termination under
                  section 6501. Without at least some of this essential information, data
                  matches of State provider rosters against CMS’s data would likely require
                  confirmation using other sources. To improve the quality of records, CMS
                  could further educate State agencies about the importance of submitting
                  complete records. CMS could also consider automated changes within the
                  process, such as making more data fields mandatory to complete a
                  submission or embedding warnings when submissions are blank in certain
                  data fields. Additionally, because some providers terminated “for cause”
                  do not have unique NPIs, CMS should consider adding data fields for
                  other identifying information, such as SSN, TIN, Employer Identification
                  Number (EIN), and DOB, and should make any necessary changes to the
                  process to ensure the security of added personally identifiable information.




CMS’s Process for Sharing Information About Terminated Providers Needs Improvement (OEI-06-12-00031)   14
                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS concurred with all of our recommendations.
                  In response to our recommendation that CMS require each State Medicaid
                  agency to report all terminated providers, CMS acknowledged its authority
                  under section 1902(a)(41) of the SSA to require State Medicaid agencies
                  to report terminations of Medicaid and CHIP providers. Accordingly, it
                  will explore options available to implement mandatory State reporting of
                  data on “for cause” terminations from Medicaid and CHIP.
                  In response to our recommendation that CMS ensure that the process for
                  sharing information contains only records that meet the criteria for
                  inclusion, CMS stated that it has a new process for sharing information on
                  terminated providers, effective November 25, 2013. According to CMS,
                  this process—intended for use by staff from CMS, State Medicaid
                  agencies, and CHIP—will allow information on terminated providers to be
                  shared securely. Under the new process, CMS plans to require States to
                  submit a copy of the Medicaid termination letter issued to the provider.
                  After submission, CMS intends to review each termination to ensure that it
                  meets criteria for inclusion.
                  In response to our recommendation to take action to improve the
                  completeness of records, especially in data fields critical to identifying
                  terminated providers, CMS stated that the new process requires States to
                  submit information in critical data fields—such as the field for the NPI—
                  as well as a copy of the Medicaid termination letter. We reiterate that
                  CMS should consider adding data fields, such as SSN, TIN, EIN and
                  DOB, for identifying providers when an NPI is not available.
                  We removed a fourth recommendation listed in our draft report—for CMS
                  to establish a timeframe for replacing MCSIS—given that CMS has now
                  revised the process and moved it to another automated system.
                  For the full text of CMS’s comments, see Appendix B.




CMS’s Process for Sharing Information About Terminated Providers Needs Improvement (OEI-06-12-00031)   15
                  APPENDIX A
                  MCSIS Records, as of June 1, 2013
                   Table A-1: Number and Percentage of MCSIS Records
                   by Year Submitted and Program Submitting
                   State Medicaid                Submission Year                    Number of
                                                                                                Percentage
                   Program                   2011         2012         2013*         Records
                   AK                            0           16             0             16         0.3%
                   AL                            0          166            24            190         4.0%
                   AR                          16            67            10             93         2.0%
                   AZ                            0             0           12             12         0.3%
                   CA                            0        2,056            18           2,074       44.0%
                   CT                            5             0            0              5         0.1%
                   DE                            0           14             0             14         0.3%
                   FL                            0             9            0              9         0.2%
                   GA                            0             2           18              20        0.4%
                   IA                            0           17             4             21         0.4%
                   ID                          10              3            9             22         0.5%
                   IL                            0          288            12            300         6.4%
                   IN                            1             3            0              4         0.1%
                   KS                            0             2            0              2        <0.1%
                   LA                            1             0            0              1        <0.1%
                   MA                            0             2            0              2        <0.1%
                   MD                          24            67            31            122         2.6%
                   ME                            0             4            0              4         0.1%
                   MI                          57            62            27            146         3.1%
                   MO                            0           12             6             18         0.4%
                   MS                            0           15            17             32         0.7%
                   NE                          29              2           12             43         0.9%
                   NJ                          22           111            26            159         3.4%
                   NV                            0           18             0             18         0.4%
                   NY                         443            74            80            597        12.7%
                   OH                            0          263             0            263         5.6%
                   PA                         173           187            82            442         9.4%
                   RI                            0             1            0              1        <0.1%
                   TN                            0             2            0               2       <0.1%
                   VA                            3             0            3              6         0.1%
                   VT                            1             8            5             14         0.3%
                   WA                            3           13             2             18         0.4%
                   WI                            0           28            15             43         0.9%
                   Medicaid Total             788         3,512           413           4,713         73%
                   Medicare Total                0          233         1,493           1,726         27%
                   Medicare and
                                              788         3,745         1,906           6,439        100%
                   Medicaid Total
                   Source: OIG analysis of MCSIS data as of June 1, 2013. 

                   *Data include submissions from January 1, 2013, to June 1, 2013. 





CMS’s Process for Sharing Information About Terminated Providers Needs Improvement (OEI-06-12-00031)         16
                    Table A-2: Number and Percentage of MCSIS Records by Termination
                    Reason and Program Type
                                                                                            Medicare       Percentage
                    Termination Reason Listed in
                                                               Medicare       Medicaid           and         of MCSIS
                    MCSIS
                                                                                            Medicaid          Records
                    State exclusion/debarment, etc.                    0          2,693          2,693         41.8%
                    Loss of license or other State action          1,492            601          2,093         32.5%
                    Federal exclusion/debarment, etc.                157            962          1,119         17.4%
                    Felony conviction                                  0            188              188        2.9%
                    Other                                               0           106              106        1.6%
                    Action taken by Medicare                           5             91              96         1.5%
                    Deceased provider                                 71              0              71         1.1%
                    Noncompliance                                       0            37               37        0.6%
                    Action taken by Medicaid/CHIP                      0             18              18         0.3%
                    False or misleading information                     1             9               10        0.2%
                    Abuse of billing privileges                        0              7               7         0.1%
                    Misuse of billing number                            0             1                1       <0.1%
                    Failure to report a change of
                                                                        0             0                0          0%
                    address/ownership
                    Onsite review/provider is no longer
                                                                        0             0                0          0%
                    operational
                    Total                                          1,726          4,713          6,439          100%
                  Source: CMS MCSIS User Manual and OIG analysis of MCSIS data as of June 1, 2013.




CMS’s Process for Sharing Information About Terminated Providers Needs Improvement (OEI-06-12-00031)              17
                    Table A-3: Number and Percentage of MCSIS Records by Program and the
                    Termination Reason Listed in MCSIS




                                                                            Loss of license or other State action


                                                                                                                     Federal exclusion/debarment, etc.




                                                                                                                                                                                                                                                                                            False or misleading information
                                     State exclusion/debarment, etc.




                                                                                                                                                                                                                                                            Action taken by Medicaid/CHIP




                                                                                                                                                                                                                                                                                                                              Abuse of billing privileges
                                                                                                                                                                                             Action taken by Medicare




                                                                                                                                                                                                                                                                                                                                                            Misuse of billing number
                                                                                                                                                                                                                        Deceased provider
                                                                                                                                                         Felony conviction




                                                                                                                                                                                                                                            Noncompliance
                    State




                                                                                                                                                                                 Other
                    Medicaid
                    Program
                    AK                 1                                      0                                        1                                        4                   3           0                                  0          7                 0                                                 0                      0                                0
                    AL                 1                                     30                                       62                                        4                   1          88                                  0          0                 2                                                 0                      2                                0
                    AR                 0                                      0                                        1                                       61                  31           0                                  0          0                 0                                                 0                      0                                0
                    AZ                 4                                      8                                        0                                        0                   0           0                                  0          0                 0                                                 0                      0                                0
                    CA             2,056                                      0                                        0                                        0                  18           0                                  0          0                 0                                                 0                      0                                0
                    CT                 2                                      0                                        0                                        2                   0           0                                  0          0                 1                                                 0                      0                                0
                    DE                14                                      0                                        0                                        0                   0           0                                  0          0                 0                                                 0                      0                                0
                    FL                 0                                      1                                        0                                        3                   0           0                                  0          3                 0                                                 2                      0                                0
                    GA                 0                                      0                                        1                                       19                   0           0                                  0          0                 0                                                 0                      0                                0
                    IA                 3                                      1                                        1                                       16                   0           0                                  0          0                 0                                                 0                      0                                0
                    ID                10                                      0                                        0                                        3                   0           0                                  0          4                 0                                                 0                      5                                0
                    IL                89                                      0                                      211                                        0                   0           0                                  0          0                 0                                                 0                      0                                0
                    IN                 0                                      1                                        0                                        0                   0           0                                  0          3                 0                                                 0                      0                                0
                    KS                 0                                      0                                        1                                        0                   0           0                                  0          1                 0                                                 0                      0                                0
                    LA                 0                                      0                                        0                                        0                   0           0                                  0          0                 0                                                 1                      0                                0
                    MA                 0                                      0                                        0                                        0                   0           0                                  0          0                 2                                                 0                      0                                0
                    MD                39                                     39                                       36                                        7                   0           0                                  0          0                 0                                                 0                      0                                1
                    ME                 3                                      0                                        0                                        1                   0           0                                  0          0                 0                                                 0                      0                                0
                    MI                 2                                    134                                        5                                        0                   2           2                                  0          0                 1                                                 0                      0                                0
                    MO                 0                                      4                                        2                                        5                   1           0                                  0          0                 0                                                 6                      0                                0
                    MS                 0                                      9                                        0                                       11                  11           1                                  0          0                 0                                                 0                      0                                0
                    NE                27                                      0                                        0                                        0                   0           0                                  0         16                 0                                                 0                      0                                0
                    NJ                 7                                     47                                       83                                        3                  19           0                                  0          0                 0                                                 0                      0                                0
                    NV                 4                                      0                                        1                                        0                   1           0                                  0          1                11                                                 0                      0                                0
                    NY               292                                    148                                      131                                       15                   9           0                                  0          2                 0                                                 0                      0                                0
                    OH                72                                     75                                      116                                        0                   0           0                                  0          0                 0                                                 0                      0                                0
                    PA                55                                     51                                      306                                       26                   4           0                                  0          0                 0                                                 0                      0                                0
                    RI                 1                                      0                                        0                                        0                   0           0                                  0          0                 0                                                 0                      0                                0
                    TN                 0                                      1                                        0                                        1                   0           0                                  0          0                 0                                                 0                      0                                0
                    VA                 0                                      0                                        1                                        5                   0           0                                  0          0                 0                                                 0                      0                                0
                    VT                11                                      0                                        1                                        2                   0           0                                  0          0                 0                                                 0                      0                                0
                    WA                 0                                     17                                        0                                        0                   0           0                                  0          0                 1                                                 0                      0                                0
                    WI                 0                                     35                                        2                                        0                   6           0                                  0          0                 0                                                 0                      0                                0
                    Medicaid       2,693                                    601                                      962                                 188                     106           91                                   0        37                18                                                 9                      7                                1

                    Medicare                                           0   1,492                                     157                                                     0           0                    5          71                          0                          0                                 1                      0                                0
                    Medicare
                    and            2,693                                   2,093                                    1,119                                188                     106           96                        71                  37                18                              10                                        7                                1
                    Medicaid
                    Source: CMS MCSIS User Manual and OIG analysis of MCSIS data as of June 1, 2013.




CMS’s Process for Sharing Information About Terminated Providers Needs Improvement (OEI-06-12-00031)                                                                                                                                                                                                                          18
                   Table A-4: Number and Percentage of MCSIS Records by Provider Type
                   and Program Type
                                                                                               Medicare       Percentage
                   Provider Type Listed in MCSIS                 Medicare       Medicaid            and         of MCSIS
                                                                                               Medicaid          Records
                   Field left blank                                       0          2,107            2,107       32.7%
                   Physician                                         1,169             789            1,958       30.4%
                   Other                                               355             866            1,221       19.0%
                   Nonphysician practitioner (e.g., Nurse
                   Practitioner, Physician Assistant,
                                                                         65            307             372         5.8%
                   Certified Nurse Anesthetist, Certified
                   Nurse Midwife, etc.)
                   Personal Care Agency/Attendant                         0            244             244         3.8%
                   Psychologist                                          95             14             109         1.7%
                   Dentist                                                8             98             106         1.6%
                   Pharmacy                                               0             75              75         1.2%
                   Comprehensive Outpatient
                   Rehabilitation Facility/Outpatient                     0             53              53         0.8%
                   Rehabilitation Facility
                   Therapist (Physical Therapist,
                   Occupational Therapist, Speech                        15             33              48         0.7%
                   Language Pathologist)
                   Non-Emergency Transportation                           0             46              46         0.7%
                   Durable Medical Equipment                              0             30              30         0.5%

                   Licensed Mental Health Provider                       14             16              30         0.5%

                   Home Health Agency                                     0             15              15         0.2%
                   Community Mental Health Center                         0              5               5         0.1%
                   Hospice                                                0              5               5         0.1%
                   Rural Health Clinic                                    0              3               3        <0.1%
                   Ambulatory Surgical Center                             3              0               3        <0.1%
                   Ambulance                                              0              2               2        <0.1%
                   Independent Diagnostic Testing Facility                2              0               2        <0.1%
                   Intermediate Care Facility for Persons
                                                                          0              2               2        <0.1%
                   with Mental Retardation
                   Skilled Nursing Facility/Nursing Facility              0              2               2        <0.1%
                   Rehabilitation Center (Inpatient)                      0              1               1        <0.1%
                   Hospital                                               0              0               0              0%
                   Laboratory                                             0              0               0              0%
                   Residential Treatment
                   Facility/Psychiatric Residential                       0              0               0              0%
                   Treatment Facility
                   Federally Qualified Health Center                      0              0               0              0%
                    Total                                            1,726           4,713            6,439        100%
                   Source: CMS MCSIS User Manual and OIG analysis of MCSIS data as of June 1, 2013.




CMS’s Process for Sharing Information About Terminated Providers Needs Improvement (OEI-06-12-00031)               19
Table A-5: Number and Percentage of MCSIS Records by Provider Type Listed in MCSIS, Program Type, and State
Medicaid Program




                                                                                                                                                                                                                                                                                 Therapist (Physical Therapist, Occupational




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                      Intermediate Care Facility for Persons with
                                                                                                                                                                                                       Comprehensive Outpatient Rehab Facility/




                                                                                                                                                                                                                                                                                 Therapist, Speech Language Pathologist)




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                Independent Diagnostic Testing Facility
                                                                               Nonphysician Practitioner (e.g., NP, PA,




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                    Skilled Nursing Facility/Nursing Facility
                                                                               CRNA, Certified Nurse Midwife, etc.)




                                                                                                                                                                                                                                                                                                                                                                                                                  Community Mental Health Center
                                                                                                                          Personal Care Agency/Attendant




                                                                                                                                                                                                                                                                                                                                                           Licensed Mental Health Provider




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                Rehabilitation Center (Inpatient)
                                                                                                                                                                                                                                                  Non-Emergency Transportation




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   Ambulatory Surgery Center
                                                                                                                                                                                                                                                                                                                               Durable Medical Equipment
                                                                                                                                                                                                       Outpatient Rehab Facility
 State Medicaid Program




                                                                                                                                                                                                                                                                                                                                                                                             Home Health Agency




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                      Mental Retardation
                                                                                                                                                                                                                                                                                                                                                                                                                                                             Rural Health Clinic
                           Field left blank




                                                                                                                                                               Psychologist




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          Ambulance
                                                   Physician




                                                                                                                                                                                        Pharmacy




                                                                                                                                                                                                                                                                                                                                                                                                                                                   Hospice
                                                                                                                                                                              Dentist
                                                                   Other




 AK                                           0                0           8                           3                                               5               0          0                0                          0                                      0                                    0                                     0                               0                        0                     0                      0              0                       0                                  0                            0                            0                                          0                                        0
 AL                                           0           30       148                                 2                                                   0           0          3                1                          0                                      0                                    0                                     4                               1                        0                     0                      1              0                       0                                  0                            0                            0                                          0                                        0
 AR                                           2                2       88                              0                                                   0           0          1                0                          0                                      0                                    0                                     0                               0                        0                     0                      0              0                        0                                 0                             0                           0                                          0                                        0
 AZ                                           0                6           3                           3                                                   0           0          0                0                          0                                      0                                    0                                     0                               0                        0                     0                      0              0                       0                                  0                            0                            0                                          0                                        0
 CA                       2,049                           13               0                           0                                               0               1          0                2                          0                                      1                                    6                                     2                               0                        0                     0                     0               0                       0                                  0                            0                            0                                          0                                        0
 CT                                           0                2           0                           0                                                   0           0          1                0                          0                                      0                                    0                                     0                               0                        0                     0                      0              0                       0                                  0                            0                            0                                          2                                        0
 DE                                           0           10               0                           1                                                   0           0          2                0                          0                                      0                                    0                                     0                               0                        1                     0                      0              0                        0                                 0                             0                           0                                          0                                        0
 FL                                           0                1           7                           0                                                   0           0          0                0                          0                                      0                                    1                                     0                               0                        0                     0                      0              0                       0                                  0                            0                            0                                          0                                        0
 GA                                           7                1           4                           2                                                   1           0          0                0                          0                                      0                                    1                                     1                               1                        0                     2                      0              0                        0                                 0                            0                            0                                          0                                        0
 IA                                           1                0           2                           0                              18                               0          0                0                          0                                      0                                    0                                     0                               0                        0                     0                      0              0                        0                                 0                             0                           0                                          0                                        0
 ID                                           8                0           3                           2                                               0               0          0                0                          0                                      5                                    0                                     0                               0                        0                     3                      0              0                       0                                  0                            0                            0                                          0                                        1
 IL                                           0      167              32                               2                                                   0           1      19                   1               53                               21                                                    0                                     0                               0                        0                     0                      0              3                        0                                 0                            0                            1                                          0                                        0
 IN                                           0                0           3                           0                                                   0           0          0                0                          0                                      1                                    0                                     0                               0                        0                     0                      0              0                        0                                 0                            0                            0                                          0                                        0
 KS                                           1                0           0                           0                                                   0           0          0                0                          0                                      0                                    0                                     0                               0                        1                     0                      0              0                        0                                 0                            0                            0                                          0                                        0
 LA                                           0                0           1                           0                                                   0           0          0                0                          0                                      0                                    0                                     0                               0                        0                     0                      0              0                        0                                  0                            0                           0                                          0                                        0
 MA                                           0                1           1                           0                                                   0           0          0                0                          0                                      0                                    0                                     0                               0                        0                     0                      0              0                       0                                  0                            0                            0                                          0                                        0
 MD                                           3           64           41                              4                                                   2           0          1                0                          0                                      0                                    0                                     2                               5                        0                     0                      0              0                        0                                  0                            0                           0                                           0                                       0
 ME                                           0                0           3                           0                                                   0           1          0                0                          0                                      0                                    0                                     0                               0                        0                     0                      0              0                       0                                  0                            0                            0                                          0                                        0
 MI                                           2           48          58                               5                                               1               0          3        24                                 0                                      0                                    1                                     1                               0                        3                     0                      0              0                       0                                  0                            0                            0                                          0                                        0
 MO                                           0                5           1                           0                                                   0           2          0                0                          0                                      0                                    2                                     1                               1                        5                     0                      0              0                        0                                 0                            0                            1                                          0                                        0
 MS                                           9                9           9                           1                                                   0           0          0                0                          0                                      0                                    0                                     0                               0                        0                     0                      4              0                        0                                  0                            0                           0                                           0                                       0
 NE                                           0                0           1                           1                              40                               0          0                0                          0                                      1                                    0                                     0                               0                        0                     0                     0               0                       0                                  0                            0                            0                                          0                                        0
 NJ                                     18                52          48                               1                                               0               2      19           13                                 0                                      0                                    0                                     1                               1                        4                     0                      0              0                       0                                  0                            0                            0                                          0                                        0
 NV                                           3                2           8                           0                                                   5           0          0                0                          0                                      0                                    0                                     0                               0                        0                     0                      0              0                        0                                 0                            0                            0                                          0                                        0
 NY                                           0      173            143           164                                                 19                               4      31           30                                 0                                      5                         15                                               9                               3                        1                     0                      0              0                        0                                  0                            0                           0                                           0                                       0
 OH                                           0           76               3                 46                           117                                          0          5                2                          0                     12                                                    0                                     1                               0                        0                     0                      0              0                        0                                  0                            1                           0                                          0                                        0
 PA                                           2           92        243                      58                                       26                               3      10                   1                          0                                      0                                    4                                     2                               0                        0                     0                      0              0                        0                                  0                            1                           0                                          0                                        0
 RI                                           0                1           0                           0                                               0               0          0                0                          0                                      0                                    0                                     0                               0                        0                     0                      0              0                       0                                  0                            0                            0                                          0                                        0
 TN                                           0                2           0                           0                                               0               0          0                0                          0                                      0                                    0                                     0                               0                        0                     0                      0              0                       0                                  0                            0                            0                                          0                                        0
 VA                                           1                3           1                           0                                                   1           0          0                0                          0                                      0                                    0                                     0                               0                        0                     0                      0              0                        0                                 0                            0                            0                                          0                                        0
 VT                                           0                0           3                           0                                                   9           0          1                1                          0                                      0                                    0                                     0                               0                        0                     0                      0              0                        0                                  0                            0                           0                                           0                                       0
 WA                                           0           11               3                           1                                                   0           0          2                0                          0                                      0                                    1                                     0                               0                        0                     0                      0              0                        0                                 0                            0                            0                                          0                                        0
 WI                                           1           18               1                 11                                                            0           0          0                0                          0                                      0                                    2                                     6                               4                        0                     0                      0              0                       0                                  0                            0                            0                                          0                                        0

 Medicaid                 2,107                      789           866            307                                     244                                   14            98           75                      53                               46                                        33                                 30                          16                               15                               5                      5              3                       0                                  0                            2                            2                                          2                                        1

 Medicare                                     0   1,169            355                      65                                                         0        95                8                0                          0                                      0                        15                                                0            14                                          0                     0                     0               0                       3                                  2                            0                            0                                          0                                        0
 Medicaid
 and         2,107     1,958    1,221   372      244   109    106       75     53                                                                                                                                                                   46                                        48                                 30                          30                               15                               5                      5              3                       3                                  2                            2                            2                                          2                                        1
 Medicare
Source: CMS MCSIS User Manual and OIG analysis of MCSIS data as of June 1, 2013.




                                              CMS’s Process for Sharing Information About Terminated Providers Needs Improvement (OEI-06-12-00031)                                                                                                                                                                                                                                                                                                                                                             20
                      APPENDIX 8

                      AGENCY COMMENTS


   •..,.....~
  (,._~          DEPARTMENT OF HEALTII & HUMAN SERVICES                                 Centers for Medicare & Medicaid Services


                                                                                        Administrator
                                                                                        Washington, DC 20201




                DATE:          JAN 17 Z014

                TO:           Daniel R. Levinson
                              Inspector General
                                                   /S/
                FROM:         Marilyn TaV&lll1er
                              Administrutor

                SUBJECT:      Office oflnspector General (OIG) Draft Report: "CMS System for Sharing
                              Information About Terminated Providers Needs Improvement"
                              (OEI-06-12-00031)


                The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
                comment on the above-referenced OIG draft report. The purpose of this report is to determine
                the extent to which CMS and state Medicaid agencies reported provider information to the
                Medicaid and Children's Health Insurance Program (CHIP) State Information Sharing System
                (MCSIS), to identify MCSIS records not related to providers who were terminated "for cause,"
                and to assess the completeness of provider identifying information in the MCSIS records.

                In accordance with section 6401(b)(2) of the Affordable Care Act, CMS is committed to
                facilitating state reporting of Medicaid and CHIP "for cause" termination data. CMS phased out
                MCSIS and transitioned to the OnePT portal on November 25, 2013. The new delivery and
                storage process will allow for state-to-state information on terminated providers to be securely
                shared by way of the OnePI portal and is intended for use by CMS, state Medicaid, and CHIP
                staff. States will be able to view and download Medicare revocations, previous MCSIS data, and
                state terminations. Medicaid termination letters will also be available for download through the
                new system.

                We appreciate OIG's efforts in working with CMS to ensure that the system for sharing
                information about terminated providers is useful and effective for state Medicaid agencies. Our
                response to each of the OIG recommendations follows.

                OIG Recommendation

                The OIG recommends that CMS, to make complete information available, require each state
                Medicaid agency to report all terminated providers.




CMS's Process for Sharing Information About Terminated Providers Needs Improvement (OEI-06-12-00031)                         21
CMS’s Process for Sharing Information About Terminated Providers Needs Improvement (OEI-06-12-00031)   22
CMS’s Process for Sharing Information About Terminated Providers Needs Improvement (OEI-06-12-00031)   23
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Kevin K. Golladay,
                  Regional Inspector General for Evaluation and Inspections in the Dallas
                  regional office; Blaine Collins, Deputy Regional Inspector General; and
                  Ruth Ann Dorrill, Deputy Regional Inspector General.
                  Deborah Cosimo served as the team leader for this study, and
                  Maria Balderas served as the lead analyst. Central office staff who
                  provided support include Clarence Arnold, Kevin Manley, and
                  Christine Moritz.
                  We would also like to acknowledge the contributions of other Office of
                  Evaluation and Inspections regional office staff, including Nathan Dong.




CMS’s Process for Sharing Information About Terminated Providers Needs Improvement (OEI-06-12-00031)   24
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
